<html>
<title> - HUMAN RIGHTS AND RULE OF LAW IN CHINA: WHERE ARE WE NOW AND WHERE DO WE GO FROM HERE?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
HUMAN RIGHTS AND RULE OF LAW IN CHINA: WHERE ARE WE NOW AND WHERE DO WE 
                             GO FROM HERE?

=======================================================================



                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 12, 2008

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                   U.S. GOVERNMENT PRINTING OFFICE
46-034 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

SANDER LEVIN, Michigan, Chairman
MARCY KAPTUR, Ohio
TOM UDALL, New Mexico
MICHAEL M. HONDA, California
TIMOTHY J. WALZ, Minnesota
CHRISTOPHER H. SMITH, New Jersey
EDWARD R. ROYCE, California
DONALD A. MANZULLO, Illinois
JOSEPH R. PITTS, Pennsylvania

                                     BYRON DORGAN, North Dakota, Co-
                                     Chairman
                                     MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     SHERROD BROWN, Ohio
                                     CHUCK HAGEL, Nebraska
                                     SAM BROWNBACK, Kansas
                                     GORDON H. SMITH, Oregon
                                     MEL MARTINEZ, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor
              CHRISTOPHER PADILLA, Department of Commerce
                   DAVID KRAMER, Department of State

                      Douglas Grob, Staff Director

             Charlotte Oldham-Moore, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Douglas Grob, Staff Director, Congressional-
  Executive Commission on China..................................     1
Edwards, R. Randle, Walter Gellhorn Professor Emeritus, Columbia 
  University School of Law.......................................     2
Craner, Lorne, President, International Republican Institute.....     5
Schriver, Randall, Partner, Armitage International and President/
  CEO, the Project 2049 Institute................................     8
Richardson, Sophie, Asia Advocacy Director, Human Rights Watch...    12
Chang, Phyllis, Executive Director, China Law and Development 
  Consultants, Ltd...............................................    16


HUMAN RIGHTS AND RULE OF LAW IN CHINA: WHERE ARE WE NOW AND WHERE DO WE 
                             GO FROM HERE?

                              ----------                              


                       FRIDAY, DECEMBER 12, 2008

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10:31 
a.m., in room SD-628, Dirksen Senate Office Building, Charlotte 
Oldham-Moore, (Deputy Staff Director) presiding.
    Also Present: Douglas Grob, Staff Director.

      OPENING STATEMENT OF DOUGLAS GROB, STAFF DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

     Mr. Grob. Well, thank you all for joining us today. We are 
very pleased to have this distinguished panel of experts, and I 
will not speak for but half a minute so that we can hear what 
they have to say.
    But I would just like to ask the panelists, where possible, 
to address a few issues that I think will be helpful as members 
of our audience take what they learn here today and try to 
transform it into an understanding of human rights and rule of 
law issues in China going forward.
    We have in the last year seen an increased need to pay 
attention to the metrics that we use to assess progress in the 
development of the rule of law and human rights in China. We 
are seeing that China has become better than ever before at 
producing legislation, producing it fast in some instances, 
particularly at local levels. Much of the new legislation at 
first glance looks quite good on paper. And improvement of this 
sort in legislative processes used to be a sign of progress. We 
have to be careful now, however, not to be too impressed by 
legislation that looks good on paper, but that is divorced from 
transparent, consistent, and effective implementation. The risk 
is that the distinction between the promulgation of law and the 
making of propaganda becomes blurred.
    Looking at the span of 30 years that brings us from the 
normalization of U.S.-China relations to the present, we would 
like our panelists to discuss whether we risk contributing to 
the blurring of lines if we are too easily impressed by 
legislative efforts without, at the same time, asking probing 
questions about implementation, and also allowing enough time 
to monitor implementation before attempting to assess progress.
    Second, we have noticed in the last year that the conflict 
of laws in China remains an area of ever-increasing concern. We 
reported last year, and continue to see this year, Chinese 
authorities' strategic use of conflict between laws; that is, 
where you have two laws that are both well-written and well-
drafted, but once you put them next to each other, you find 
that key provisions in one may be neutralized by provisions in 
the other. We hope our panelists would also comment on whether 
they see a need to raise our level of awareness and 
understanding of problems such as this before drawing 
conclusions about progress in the rule of law and human rights.
    I also would ask that our panelists comment on the 
terminology we choose to describe human rights and rule of law 
issues in China. The Chinese Government and Communist Party 
describe citizen activism and public protest using the terms 
``social instability'' and ``social unrest.'' They favor these 
terms, it seems, in part because these terms implicitly point 
to citizens as the root cause of undesirable social conditions. 
However, China's increasingly active and engaged citizenry may 
be one of China's most important resources for addressing the 
public policy problems that China faces today, whether it be 
food safety, forced labor, environmental degradation, or 
corruption.
    In our reporting, we deliberately avoid using the terms 
``social instability'' and ``social unrest,'' and refer instead 
to ``citizen activism'' and ``public protest.'' It is a subtle 
but important practice because it is consistent with the notion 
that engaging citizens and not repressing them is the way to 
promote the effective implementation of human rights and the 
rule of law. Therefore, if our panelists would please comment 
on the importance that they have noticed over the years in the 
discourse that we choose--the language that we use--to discuss 
and talk about human rights and the rule of law in China, and 
the impact those choices may have had, that would be quite 
helpful.
    And now I have the privilege of turning the floor over to 
Professor Randy Edwards from Columbia University.

   STATEMENT OF R. RANDLE EDWARDS, WALTER GELLHORN PROFESSOR 
          EMERITUS, COLUMBIA UNIVERSITY SCHOOL OF LAW

    Mr. Edwards. Thank you very much. It is an honor to be 
here. I was a member of the D.C. Bar, so as a lawyer, I guess I 
should be careful to warn you that professors very rarely can 
speak for less than 50 minutes, so I am not sure how wise they 
were to start with me. But they did put me just opposite the 
clock, so I will try to limit my remarks.
    I do not know how many of you remember the so-called Maoist 
period of the Cultural Revolution, the late 1960s and the early 
1970s, when an important form of controlling the masses and 
encouraging them to think in the right way was self-criticism. 
And I remember when I wanted to go to China, I had been 
teaching Chinese law at Columbia Law School from 1973, 
pretending to be an expert. I did not worry too much about my 
colleagues finding out because none of them could speak 
Chinese. They did not know what was going on. And so Chinese 
law was pretty much then whatever I said it was, at least at 
Columbia, and I could make it up as I went along. And I tried 
to base my observations on trends and developments on Chairman 
Mao's latest poem. And, of course, a great deal of latitude was 
permitted reading that.
    It was probably in the late 1970s or early 1980s when I 
realized that the taxi drivers were, on the one hand, the best 
source of information and insight on the reality of Chinese 
law. On the other hand, the taxi drivers were not aware that 
there was an enormous corpus of what lawyers would admit was 
law--that's administrative law, which was largely internal. And 
we Americans were not looking for that law. We were looking for 
laws and legal process and due process and rights that 
resembled our own reality as well as our definition. And so the 
taxi driver did not know that there was a great deal of 
regularity, at least in the way administrative power was 
exercised, for the purposes of the state and for the leader. Of 
course, this has a long historical background, this system of 
administrative regulations, wall-to-wall rules, and strict 
discipline of officials who failed to comply and carry out the 
Emperor's will, and later the party's will. This was all 
``neibu,'' internal rules and regulations.
    And so I guess one point that I would make here and urge 
you to think about this morning and in the future when you 
think about what China is, in particular about so-called rule 
of law, is China does have a very deep tradition in the state 
bureaucracy of rules and regulations. It is very hard to change 
that. There have obviously been some changes. Membership in the 
World Trade Organization, compliance, this has forced obviously 
a lot of paper change and perhaps some genuine changes.
    Another perspective on law, of course, is from the bottom 
up, from the people's view. And since there has never been a 
participa-tory democracy in China that has selected the power 
institutions, likewise there has not been a great deal of 
popular participation from the bottom up in the definition of 
norms and procedures for ruling themselves.
    On the other hand, one point that I deeply believe in, 
which I urge you to at least tentatively consider as you weigh 
it against this wonderful presentation by the CECC panel today 
of the reality and what is happening and what is not happening 
in China, is that I believe that the ``lao bai xing,'' the 
masses of the Chinese people today and for a thousand years had 
a sense of entitlement. We would not call it a sense of due 
process of law and of rights, but they have had a sense of what 
they owned in property. They have a sense of what is fair 
treatment with respect to other citizens and with respect to 
the state. And they were willing 300 years ago to walk 5,000 
miles all the way to Beijing, pick up a stick and beat on a 
brass drum called the ``deng wen gu''--this is the grievance 
drum--to wake up the Emperor at 3 o'clock in the morning. The 
Emperor then would order a de novo trial down in the 
countryside.
    So there has been a popular expectation of fairness and 
protection, and there have been certain rules and institutions 
that the Emperors and the officials have had to adhere to. Just 
like rules today, here and there the enforcement of rules is a 
different matter than the articulation of rules that embody 
what we think are the fundamental principles of human rights. 
And China has a long way to go.
    I am going to ignore almost entirely my outline here 
because my time is just about up. I had an outline of a 
presentation that was going to sound almost as if it was 
drafted by the state public security bureau. I was going to say 
how wonderful things are and how much they have improved and 
changed, and I think there has been improvement in China.
    When I first arrived in China in May 1978, there were two 
law schools open. I visited Peking University Law School 
[``Beida''], and I was met by the entire faculty. Four 
professors is all they had at that time, and I had the 
privilege of having a close relationship with these gentlemen, 
and we were able to start an exchange program between Columbia 
Law School and ``Beida.'' Then with Ford Foundation assistance, 
we were able to establish a national program for helping China 
train lawyers and, in particular, law professors. And that, I 
think, is something that--not perfect, but it has had perhaps a 
very positive effect.
    I am not sure it is positive, however, the fact that the 
number of law schools has gone from 2 to 500, because what 
about standards? And that is a question. But lawyers, as has 
already been said by the panel, lawyers now, some of them, have 
the guts to fight for justice. That is positive.
    Another point, which I will conclude on, is every country 
has a problem of inconsistency between their high ideals and 
what they actually do. Look at Abu Ghraib, Guantanamo, I do not 
have to go into details. We have our problems. And this is not 
to say that the Chinese should not be criticized and we should 
not help the Chinese citizens to work toward perfection, never 
expecting to get there. But if we want to continue to have some 
inputs by the Chinese Government, we have to try to avoid 
hypocrisy, try to avoid inconsistency, and perhaps approach the 
Chinese Government--and perhaps that is what we are doing--as a 
friend in a way, not just because they own us--they own 25 
percent of our national debt--but because they deserve respect 
as a great country.
    So I just encourage continued emphasis on open cultural 
exchange and education, and I am delighted that Phyllis Chang 
is here because she combines two very important things 
pertinent to the topic of the panel this morning. She 
represented the Ford Foundation in facilitating legal education 
in China, and now she is involved in running an NGO in China 
that is directly engaged in promoting development toward the 
rule of law and protection of human rights.
    Thank you.
    Mr. Grob. Thank you very much, Professor Edwards. I was so 
starstruck by this distinguished panel that in my rush to hear 
what they had to say, I neglected to introduce everybody 
properly, so I apologize. We will do that now.
    Professor Randle Edwards is the Walter Gellhorn Professor 
Emeritus of Law at Columbia University School of Law and, as 
you have probably been able to tell, is a pioneer in U.S.-China 
legal and educational exchange. In addition, he is probably the 
foremost scholar in the Western world on administrative law in 
the Qing dynasty in China. More importantly, for our purposes 
here today, he literally wrote the book on human rights in 
China, and we are just thrilled that you could join us today. 
Thank you very much.
    Ms. Oldham-Moore. A lot of Professor Edwards' students are 
in the audience today from Columbia Law School, so it is really 
a lovely thing to have them here.
    We are very pleased to have Lorne Craner with us. He is the 
President of the International Republican Institute [IRI]. His 
most recent stint at IRI began in 2004. Prior to that, he was 
Assistant Secretary for Democracy, Human Rights, and Labor for 
President Bush, where he led President Bush's approach to 
democratization in the Middle East, as well as helped to 
establish the Millennium Account. He also served as Brent 
Scowcroft's National Security Council advisor on Asia. We are 
very fortunate to have you here, Mr. Craner.
    Mr. Grob. We are very pleased to have to my right Randall 
Schriver, Partner with Armitage International, and also 
President and CEO of the Project 2049 Institute. From 2003 to 
2005, Randy was Deputy Assistant Secretary of State covering 
China. So we are very pleased to have you with us today. Thank 
you very much.
    Ms. Oldham-Moore. We are also fortunate to have on the 
panel today Sophie Richardson. Ms. Richardson is the Asia 
Advocacy Director for Human Rights Watch and director of their 
work on China. Sophie has a ah.D. in political science and a 
forthcoming book from Columbia University Press on China's 
foreign policy. She has done field work in Yunnan and other 
provinces.
    Mr. Grob. And, finally, we are also very pleased to have 
with us Phyllis Chang, Executive Director of China Law and 
Development Consultants, Ltd. Formerly, Phyllis was the 
representative of the Ford Foundation in Beijing, and I would 
say that there is probably no person who has done work in China 
on human rights and rule of law issues in the last decade who 
has not crossed paths with Phyllis at some point. Her knowledge 
of conditions on the ground and of programming and policy in 
this area is really unsurpassed. So thank you very much for 
joining us today.
    Ms. Oldham-Moore. Okay. Mr. Craner, please.

STATEMENT OF LORNE CRANER, PRESIDENT, INTERNATIONAL REPUBLICAN 
                           INSTITUTE

    Mr. Craner. Well, first of all, thanks for the invitation 
to be here today. As a former member of the CECC, I have a 
great regard for the Commission and its work, especially for 
the very talented staff. Thank you.
    As I look back on the last few years, especially on human 
rights in China, the situation certainly looks very bleak. At 
the State Department I was able to work on China quite a bit. 
There have been some who have said my successors did not. I 
have pointed out to them that they came into a much tougher 
environment than I did on human rights in China. I think things 
really started to change in about 2003, 2004, for the rougher. 
And you can see that in the arrests that have occurred this 
week. You can see that in the paucity of prisoner releases that 
have occurred, and the very little that has come out, I think, 
of the dialogues that we have had, formal or otherwise, with 
China.
    I do, however, believe there is reason for hope, and let me 
outline why.
    We are all very familiar with, and I certainly do not need 
to tell this room about, the background of the last 25 to 30 
years, the unprecedented economic growth resulting from policy 
changes in the 1980s. We also all know that those economic 
policy changes begat political changes. We are all familiar 
with them: village elections, judicial reform, more legislative 
and media openness, and the growth of a nongovernmental 
organization [NGO] sector.
    So as the Professor said, there have been changes, but the 
structure in China remains incapable of dealing with a problem, 
and that is that these changes have begat expectations. They 
have caused rising expectations among the Chinese people, and 
no longer just among the intelligentsia. There probably will 
not be what we would refer to as democracy in China, but 
certainly--and I will borrow here a word from reformers in the 
Middle East--what I would call ``justice.'' And you think of 
people in the rural and urban areas, and that is essentially 
what they would like to see.
    So you have these high expectations that are not being met, 
and you certainly have, as I said, in rural and urban areas 
people demanding more and more rights that they have been told 
they should be able to expect.
    Randy and I and others came into the administration in 2001 
dealing with a particular kind of human rights policy toward 
China that I think had been ongoing since the 1970s, through 
Democratic and Republican administrations. And that was 
essentially that the measurement of improvement in human rights 
in China was the release of dissidents. It was how many people 
got off the airplane in Detroit every year. And if enough 
dissidents were released, then apparently the human rights 
situation in China was changing.
    I came at this, again, from more of a democracy than a 
human rights background, though I will tell you my most 
gratifying moments in government were being able to welcome 
people who had been released from China. And over the years, 
there were quite a number--Rebiya Kadeer, many Tibetans. We all 
know who they were. And I always say that those of us who are 
in the Human Rights Bureau were kind of pleased with ourselves 
until working with John Kamm, which I had done before, we began 
to learn that at the rate people were getting out of prison in 
China, it would only take six centuries to empty out the 
prisons, assuming nobody else ever got arrested.
    One of the things we were looking at was something that is 
really a bipartisan policy, and it had been looked at at the 
end of the Clinton Administration. Paul Gewirtz and others had 
begun to look at the possibilities of supporting structural 
change inside of China, and we were able to make those hopes 
come about. We had a congressional authorization, an earmark 
that continues today, originally for a few million, now between 
$15 and $20 million a year, to support those processes that I 
had talked about before--village elections, media openness, 
rule of law, labor groups, Tibetans, and others.
    Now, I will tell you that we have all learned that you 
cannot implant democracy around the world. And those of us who 
read Jonathan Spence's book, know the wrong thinking if you are 
under any illusions that you can change China. There has been a 
long history of people from the West who have tried to do so. 
In the end, the Chinese people will change China. But what we 
are seeing, I think, is that clearly the Chinese people want 
change.
    Now, to tie all this together, the current situation in 
China, the Chinese people are looking at a future. They have 
had Hong Kong come back. They have had a man in space. They 
have even had the Olympics. And I know a lot of them are 
saying, ``Now what? '' And I think if you look at some of the 
stories just from yesterday's New York Times, many of us may 
not look at the Business Section, but there is an interesting 
article on China's economic outlook, and one of the paragraphs 
says this: ``Even at a time of increasingly dour economic news, 
the Chinese trade numbers''--and it said the Chinese exports 
had fallen 2.2 percent in one month year-to-year--``stunned 
many economists. They struck an ominous note for China where 
labor unrest has increased markedly as the economy has slowed 
in the last month.''
    You also had a story of their marking Human Rights Day by 
arresting dissidents who had turned up to protest at the 
Foreign Ministry.
    I think in the present economic climate things are going to 
get very tough in the short run for dissidents in China. I 
think that is because the government there is much more brittle 
than we realize, but they understand that. So I think that they 
will clamp down.
    There was an article in the L.A. Times today where Susan 
Shirk was saying, ``I think they can get through this. They can 
do what they did in Tiananmen and throw some people in jail and 
just hold together.'' But I would argue that because of these 
increased expectations, you are not just talking about 
intelligentsia in China; you are not talking about college 
students anymore who expect something better. And in the medium 
run, I think increased economic and political expectations will 
necessitate reform by the Chinese Government.
    We all know that the party as presently configured is 
unable to deliver on these widespread demands for justice. You 
can come to Beijing and you can bang the drum, and if the 
leaders hear of a particular case, they can solve a particular 
case. But there are only so many letters that they can read in 
one day and only so many cases that they can solve in one day. 
And they are simply not capable of meeting these rising demands 
for justice, and I think this is where this terminology about 
social instability comes from. It is an unstable system if you 
cannot address demands for justice. Inherently it is unstable.
    I would argue that the United States could rely solely on 
traditional methods to help reform diplomacy. Congressional and 
United Nations resolutions, all of that should continue as, by 
the way, should our focus on bringing individuals out of jail. 
All the reform that we talk about is carried out by 
individuals. If you are an individual--and I have seen this 
around the world--and you think you could go to prison and be 
locked up for 20 or 30 years because you are arguing for reform 
in your country, it is a very daunting task to take on if you 
think, ``I may go to prison, but maybe I will only be in for a 
year, and somebody will be taking care of my family in the 
meantime.'' It makes you a lot more willing to do what needs to 
be done.
    And, again, I would also remind everybody here we need to 
keep in mind that we are not really capable of changing China. 
But I would argue that the United States has begun to act at 
the margins with the Chinese people who will change China. The 
programming that is going on at the State Department enables us 
to reach past what traditional methods on these issues do. If 
you are doing diplomacy, if you are doing resolutions at the 
Congress or the United Nations, the top tier, the government 
officials in China, may hear about that. Ordinary people do 
not. If you are able to work with ordinary people, they 
understand that there is some interest in the outside in the 
kind of work they are doing.
    Finally, I would argue that such work ensures that China's 
change will not be a crash landing. I do not think any of us 
want to see a crash landing in China with huge economic and 
social dislocation, as has occurred in some countries. But what 
it does is ensure that as change, as reform comes to China, the 
people there will understand the rudiments of democracy; that 
they will understand voting and elections; that they will 
understand when you vote for somebody, you are supposed to get 
something in return; that they will understand how civil 
society is supposed to be able to influence a government; that 
they will see a rule of law as an alternative to party rule; 
and they will see a media as a watchdog. At the moment all 
these developments are being tolerated if retarded, but at some 
point they will begin to come to the fore.
    So let me just conclude as we look forward and think about 
what to do to think about the congressional earmark, the money 
that has been given, and the efforts the State Department has 
been able to make as a result as one method to be able to help 
reform in China.
    Thank you.
    Ms. Oldham-Moore. Thank you, Lorne. That was really very 
helpful.
    Randy Schriver, please begin.

STATEMENT OF RANDALL SCHRIVER, PARTNER, ARMITAGE INTERNATIONAL 
           AND PRESIDENT/CEO, PROJECT 2049 INSTITUTE

    Mr. Schriver. Well, thank you very much. I also want to 
thank you for the invitation. You have certainly enhanced my 
reputation by seating me here with such a distinguished panel. 
I hope I am not hurting any of yours. And I also want to 
congratulate the Commission on almost a decade of outstanding 
work. Your work has always been very helpful to inform 
policymakers, as I found myself, but I find even now as a 
private business person--I am a consultant, so I am in the 
profession of separating people from their wallets--I 
oftentimes hand your reports to CEOs and other business people 
who are trying to understand the environment in which they are 
operating themselves. So the work you are doing is reaching a 
very broad audience, and I think it is incredibly valuable.
    I was asked also to speak a little bit about the 
experiences of the Bush Administration as well as looking 
forward to the incoming Obama Administration, speak a little 
bit about what I think worked well, maybe did not work so well, 
and some advice for our successors. And I think I want to get 
into a little bit of the inside baseball, because I think we 
often conceive--when we think about the challenge, how does 
government promote the right kinds of change and try to promote 
improvements in human rights in China, we mostly think about 
the substance. What is it that we are trying to achieve? What 
is it that we are asking? And we think less about how we are 
organized to do it, what are the tactics that we use, how do we 
interact with our Chinese interlocutors and so forth.
    So I want to take a moment to first talk about organization 
and tactics and then talk about substance as well, and I should 
also as a prefacing remark say that I would associate myself 
with everything my colleagues have already said on this panel, 
particularly Lorne Craner, who I enjoyed so much working with 
in government and have such a great deal of respect for.
    Let me talk a little bit about organization and tactics. I 
think the first point I want to make is that you have to 
organize within the lead agency for these issues in such a way 
that these issues are going to receive sufficient attention, 
have the right kind of profile, and have the right kind of 
prioritization. And that can be accomplished a number of ways. 
I think probably the easiest is when you have leadership at the 
Cabinet level and even beyond that prioritizes these issues. 
But I think there is a structural issue as well, and I 
personally believe that the experts--people who understand 
democracy promotion, human rights--need to be in charge of this 
policy rather than the regionalists. And, of course, you need 
to work hand in glove, but our colleagues who deal with this 
for a profession and understand all the intricacies and 
delicacies and effective tactics need to really be in the 
driver's seat. And I felt as though--perhaps a sense self-
serving, I felt as though that Lorne and I had that 
relationship. There are others, Susan O'Sullivan, and I saw 
Kelly Curry back there, whether it was human rights in general 
or Tibet, I felt as though our Asia Bureau tried to do 
everything we could to facilitate our counterparts' abilities 
to move that agenda forward.
    But that has not always been the case, and oftentimes there 
is a tension between regionalists who see human rights as an 
issue they need to manage, or sometimes even a bureaucracy to 
manage, and counterparts that they need to handle rather than 
work hand in glove. And I would urge the next administration to 
make the issues a priority, but also think about the structural 
factors that would ensure that and promote that kind of 
outcome.
    I think another organizational question is the role of the 
interagency. I think oftentimes the U.S. State Department and 
our Embassy and our representatives in-country are primarily 
responsible, yes, but almost exclusively empowered to deal with 
these issues. I think this should be interagency-wide. And I 
look at a forum like the Strategic Economic Dialogue [SED] 
where we send 7 Cabinet Secretaries to China and we receive 
almost 20 Ministers from China when we hold the SED here in 
Washington, and I think this is a flagship dialogue. I know our 
Chinese counterparts look at it as the most important dialogue. 
Human rights should be injected into that in a very creative 
and sophisticated way.
    Just, by the way, as our Chinese counterparts are very 
skilled at doing, if there is--I have my own list of things I 
admire about their bureaucracy, and one thing they are quite 
good at is consistency of message across ministries and a real 
studiousness about sticking with important agenda items. But I 
think this could happen in our interagency. I do not think it 
was very effective or even tried in our administration, and I 
would encourage the next administration to look at that.
    I think also--I suppose this would be a popular statement 
with this crowd, but I think congressional and executive 
cooperation is also important. I think this worked well in some 
cases during our tenure. I think the case of Rebiya Kadeer is a 
good example. There was a congressional angle, of course, to 
her original imprisonment. So each branch had made that a 
priority, and I think we worked very effectively, kept one 
another informed. We understood what was being conveyed from 
Congressional staff and Members. We shared what we were doing, 
and I think that is a good case study. I am not so sure that it 
is always employed across the board in the broader human rights 
agenda that we are trying to pursue, and I think it could be 
more effective.
    Let me talk a little bit about tactics and approach, and I 
think number one, we need to do a better job of understanding 
Chinese tactics and their approach to these issues. Clearly we 
are often engaged in trying to promote outcomes that help the 
Chinese people but the Chinese authorities and governing 
officials are not that enthusiastic about, or let's just say 
their enthusiasm is well contained. So oftentimes they engage 
in what I would call very clever tactics. They often trade 
process for policy. We fall into the trap of claiming we have 
made great progress because a dialogue has been resumed or a 
dialogue has been elevated to a new level. But, in fact, we are 
still just talking about process, right? We are not talking 
about fundamental change or reform. And so whether you want to 
call that slow rolling, whether you want to understand they are 
trying to deal in a currency where they think they can get 
credit rather than doing the difficult work of reform, we need 
to understand their approach to these issues and take into 
account as we formulate our own tactics.
    Based on understanding Chinese tactics, we also need to 
understand their prioritizations, the kinds of things that they 
value. One of the things I have always been frustrated about 
and I would put our own administration on report for is this: 
We do not always understand where our leverage lies, where our 
leverage is. China is changing, but they still place a very 
high priority on symbolism, on so-called face, the kind of 
respect that their leaders and visitors receive. I have always 
been stunned that we oftentimes sacrifice our highest cards, 
our highest chits at the very beginning of a trip planning 
session. You know, the 21-gun salute on the White House lawn, 
whether or not our leader will go to Tiananmen for the opening 
ceremony, you know, those are the things that we should reserve 
as the most valuable chits, and we should employ those for 
things that we care about. It is sort of a value-based 
reciprocity where I think they do probably place a higher 
priority on the protocol aspects and the symbolism.
    I have been involved in enough negotiations where we talked 
about the number of cars in a motorcade to understand where 
some of this is important. And it should be traded upon. We 
should deal in currencies that give us the opportunity for the 
best kind of outcomes. And I do not think we always understand 
our leverage. At times we do, but not always.
    Another tactic I think--and I would give our administration 
and Lorne credit here--we need to continue is the work of 
working with international partners. The voice of the United 
States is a very powerful and important voice. Oftentimes, we 
are the only ones willing to speak. But for some of the reasons 
that were stated earlier, the perceptions of hypocrisy or maybe 
the suspicions of our motives because of the view that there 
may be burgeoning strategic competition, it is extremely 
helpful when you have the European Union, when you have other 
Asian countries also involved--and sometimes that is the 
hardest nut to crack, getting countries in the region to speak 
up on these matters. But I think Lorne and his team certainly 
deserve credit for trying to do that, and that should continue.
    We do need to be consistent in our message and the kinds of 
things we are trying to achieve, even in the face of difficult 
obstacles.
    And, finally, I did want to address this question of 
respect. I could not agree more. You need to approach these 
issues from a position of respecting the Chinese people, 
respecting many of the accomplishments that China has achieved. 
But this should not be confused with an unwillingness to raise 
difficult issues, an unwillingness to be both public and 
private. You know, we are often told by Chinese counterparts, 
``Well, yes, we can talk about this, but this must be very 
private. If you bring this public and it becomes an 
embarrassing situation, it will hurt our chances for 
progress.''
    I am of the view that you can be respectful, you can 
associate yourself with the right kind of reforms and the right 
kind of aspirations for modernization, and make these issues a 
priority both publicly and privately. So those are a few items 
on organization and tactics. I think the substance part of this 
has been well covered, so I will just underscore a couple 
points.
    I certainly agree with Lorne that systemic reform rather 
than the individual prisoner releases should be the central 
focus of the next administration, as it was under Lorne's 
tenure. I think even things you do not get across the finish 
line, working in that direction, does carry the potential for 
the greatest dividends. Lorne did a lot of work and his team 
did a lot of work on Chinese legal reform when they did away 
with counterrevolutionary crimes, and we did some work on 
looking at who was in prison for crimes that were no longer on 
the books and what could be done to release them. And I think 
that was the absolute right approach. But he is right, you 
cannot ignore the individual cases, nor would I in any way 
understate how significant that is for the relationship and how 
personally significant. I agree that some of my best days in 
Government service, welcoming Rebiya Kadeer, Ngawang Sangdrol, 
a Tibetan nun, I mean those things you just never forget. So 
that has to continue.
    I think we need to be very comprehensive. I mentioned as a 
tactic interagency work. But we need to have a comprehensive 
view of human rights promotion and realize that in a 
comprehensive agenda. So things like rule of law need to be 
included, but also environmental matters, press matters where 
there are opportunities.
    As I said, we need to understand Chinese tactics. We need 
to understand Chinese objectives. There are instances where 
they have genuine aspirations for reform, but in some cases, 
they do not have the experience, the knowledge, the capacity. 
Trying to find those areas and exploit them is, I think, an 
opportunity that should not be missed.
    And then, finally, I would just endorse the comment about 
programs. There should be no issue that is too small, programs 
that get into local communities, local-level reforms. You know, 
if you look at the pace of Chinese modernization and 
improvement in human rights, it is certainly not this national 
trend line that moves in one direction or the other. It is very 
uneven. And there are creative people in China that are trying 
to do interesting and creative things, and we need to be very 
active in seeking out those people and embracing their agendas 
in ways that we can actually help them.
    So thanks again for the opportunity to participate in this 
panel.
    Ms. Oldham-Moore. Thank you, Randy Schriver.
    Sophie Richardson, please.

 STATEMENT OF SOPHIE RICHARDSON, ASIA ADVOCACY DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Thanks. I am a little uncertain what to do 
since I think Randy and Lorne have said almost everything that 
I was going to say, so hopefully this will not be dull or 
repetitive.
    First of all, thanks very much to the CECC. I will get 
fired for saying this out loud, but if you are going to read 
one thing about China in the next couple months, do not read 
our stuff. Go read the CECC's annual report. [Laughter.]
    Don't report that part. It is a great document. It was well 
worth the wait, and there are some really smart, thoughtful, 
practical recommendations in there.
    I was asked to speak this morning more about steps that the 
Obama Administration can take to better promote rights in 
China. It is logical to start, though, by reflecting on the 
Bush Administration's approach. On some issues like prisoner 
releases, on religious freedom, on pushing the Chinese to talk 
directly to the Dalai Lama, the Bush Administration was a 
pretty good ally; but on many issues, and in many instances, 
and particularly during the second administration, rights 
issues were subordinated particularly to concerns about the war 
on terror, trade issues, the Six Party Talks. It is also 
important to remember in discussions like this how much the 
U.S. relationship with China continues to be governed by issues 
related to Taiwan, which, of course, are quite separate from 
human rights concerns, but it matters in terms of the 
priorities that people in the administration are dealing with 
on a daily basis.
    Particularly with respect to the Olympics, certainly the 
President had a lot more to say than most of his colleagues 
from other governments. But the fact of the matter is that his 
comments were still sorely lacking. They were late. They were 
not connected to any meaningful consequences for failing to 
improve. And worst of all, they were virtually inaudible to a 
Chinese audience. Virtually none of the Chinese people to whom 
I have spoken since August--all of whom were in positions that 
allow them access to this kind of news--were aware of them.
    At the same time, I think the reality is that the dynamics 
that drove some of the Bush Administration's decisions are not 
materially different from the ones that have mattered in past 
administrations. There are certain constraints that I think 
nobody does a great job of surmounting. If the Obama 
Administration fails, it won't be because Democrats or 
Republicans are better or worse on China and human rights. It 
is that pressing the Chinese Government on human rights is 
incredibly tough, but with some creativity, commitment, and 
coordination, the Obama team may do better than some of its 
predecessors.
    I think that despite the incredible predictability with 
which the Chinese Government will reject, resist, and object to 
bilateral or international criticism, I think we know that 
sustained public criticism works. To this end, I would point to 
two recent developments. One, the extension of some of the 
temporary regulations for foreign journalists inside China. I 
do not think that would have happened if every embassy in 
Beijing and every government across Europe and in the United 
States had not weighed in. I think also the small improvements 
that we have seen in Hu Jia, a very prominent dissident, in his 
condition, that he has been moved to a prison closer to 
Beijing, would not have happened, again, without sustained 
international criticism.
    To put it another way, the Chinese Government depends on 
the United States and others buying into the idea that quiet 
diplomacy is the only tool available. I would encourage people 
to question that.
    We need to get better fast at finding ways of speaking 
directly to the Chinese people instead of speaking through the 
government or allowing the government to be the sole 
interlocutor. I point to the comment I made a minute ago about 
who in China hears what. We have means at our disposal. I 
cannot stress strongly enough how important international 
broadcasters like Voice of America and Radio Free Asia are to 
doing this. But the technology makes things possible that were 
not several years ago. There is no reason that senior U.S. 
officials cannot do things like engage in live Web chats with 
the Chinese people. We have seen more people make an effort to 
make public speeches when they are visiting Beijing or other 
cities. Every U.S. official should be making more of an effort 
to do that.
    We should dramatically increase the funding available for 
Chinese human rights organizations. They are extraordinary 
people. They do great work. They need assistance. And it is not 
necessarily always the kind of capacity-building experience 
that maybe we are used to in some other parts of the world, but 
they need the funding and they need a little bit of political 
cover. Distributing rights-friendly material in Chinese is also 
helpful.
    Much will depend for the Obama Administration on doing a 
better job than all of its predecessors, not just the Bush 
Administration but certainly also the Clinton Administration, 
in better coordinating policies, actions, and messages across 
the government. I think a failure to do so makes it incredibly 
easy for the Chinese Government to exploit inconsistencies or, 
worse still, the silences.
    I think there is no better example of this than the 
consequences of the disproportionate emphasis that the Bush 
Administration put on the Six Party Talks, which are obviously 
of tremendous significance. But the reality is that a lot of 
human rights issues were almost completely subordinated to this 
one particular agenda. We have great admiration for Chris Hill, 
and I thought the photograph in the New York Times this morning 
was a little bit heartbreaking--it was a snapshot of him 
leaving Beijing, alongside a story saying that the talks had 
really fallen apart. It isn't just that those talks haven't 
succeeded--it's also about all of the other issues that did not 
get raised in the hopes that the Chinese would be more 
cooperative on that issue.
    To give a slightly more positive example of having people 
from across different parts of the government speak up about 
rights: until the financial crisis, I probably could not have 
picked Henry Paulson out of a line-up except for the fact that 
completely out of the blue, about a year ago on a visit to 
Beijing, he all of a sudden started talking about human rights 
issues. The Chinese did not see it coming, and, as a result, 
his comments really registered. I think it is incredibly 
important that particularly people at the Cabinet level go to 
Beijing equipped with some knowledge relevant to their own 
portfolios so that if they are given the opportunity or they 
find themselves in the circumstances where they can make these 
kinds of points, they should do so. There is no reason the head 
of the Department of Health and Human Services could not speak 
up about discrimination of people who have hepatitis B or 
forced evictions. The Secretary of Education could easily be 
talking about things like work-study programs in Chinese 
schools where children are effectively being forced into 
income-generating activities so that their schools stay open. I 
think taking that message across different parts of the 
government can be an incredibly effective way to promote 
rights.
    It is profoundly frustrating to see U.S. Government 
officials talk at cross purposes and effectively undermine each 
other. Our views of President Bush's criticisms around the time 
of the Olympics are pretty clear. It is all that much worse 
when you realize that two days after he made those comments, 
Secretary of Labor Chao showed up in Beijing and gave a speech 
which basically dignified the Chinese Government's idea of 
``harmonious society,'' which we all know is a term that is 
often used to crush dissent. It should be a little bit easier 
to get it together with respect to messages like these, and I 
think it is probably no surprise to everybody in this room 
which of those messages got reported in the Chinese press.
    There are two crucial issues on which the United States' 
muted position has to change quickly, or else previous efforts 
are undermined. It was just a little over a year ago that the 
Congress and the President awarded the Dalai Lama the 
Congressional Medal of Honor. Since the protests in Tibet in 
March and as the dialogue between Beijing and the Dalai Lama 
has faltered over the last couple of months, this 
administration has been virtually silent. That is unforgivable, 
particularly for an administration that wants to claim the 
Sino-Tibetan dialogue as part of its successful legacy. If they 
do not speak now before they leave this office, it really 
creates problems for moving things forward.
    The next issue really is about a story this week, this 
incredible group of about 300 Chinese scholars, activists, 
mechanics--it is an incredibly diverse group--have put out a 
document called ``Charter 08,'' which is modeled on ``Charter 
77.'' This is an incredibly courageous thing to do, 
particularly heading into the year in which we will be 
observing the 20th anniversary of Tiananmen.
    I have to compliment the State Department here for managing 
to get a statement out. That is a step very much in the right 
direction, but the reality is that Ambassador Randt needs to go 
out and say this in public in Beijing now.
    Liu Xiaobo, who is a very well-known dissident, has not 
been heard from in several days. He was arrested in connection 
with the publication of the charter. This is a man who has been 
welcomed at the U.S. Embassy in Beijing. You cannot have him be 
your friend when it suits you to do so and then fail to defend 
him when the going gets tough. That is not acceptable, and we 
will be watching the Obama Administration very carefully to see 
that it does a better job, particularly with respect to 
individuals like this.
    Last, but not least, it is important to take on the Chinese 
Government in the venues that matter the most to them. At the 
top of this list is the Strategic and Economic Dialogue [SED]. 
This is the dialogue they like as opposed to the human rights 
dialogue, which they hate and filibuster and really have not 
accomplished a great deal. There is no reason that trade 
discussions cannot talk about things like product safety, which 
at the end of the day is as much about a free press in China as 
it is about anything else. There is no reason that security 
debates should not look at the role of U.S. companies, U.S. 
technology companies selling surveillance gear that gets used 
by the Public Security Bureau in China to keep people from 
criticizing the government.
    Lest people think that there is no connection between human 
rights and security issues, I just wanted to quote a little bit 
of--not nearly as good as it ought to have been, the statement 
from the President-elect's office on the occasion of Human 
Rights Day, which, nevertheless, at least makes a very explicit 
connection between these things. He said, ``By promoting human 
rights, the United States will strengthen our security and 
well-being.'' That alone ought to be enough for the SED to take 
on these issues.
    Another venue that the Chinese care a lot about and 
virtually nobody in Washington is really paying much attention 
to is the upcoming Universal Periodic Review [UPR] of China. 
This takes place on February 9 in Geneva. It is two weeks after 
the inauguration. This is the new mechanism at the Human Rights 
Council where all member states are going to get reviewed. But 
for China, it really is different. This is a venue where they 
never wanted to be reviewed, where they resisted mightily, and, 
in fact, their resistance contributed a great deal to the old 
Commission collapsing. And so I think the United States 
engaging to make sure that China's review is vigorous, the 
United States has to show up with good questions, with good 
recommendations, and not just let it slide, because if the 
Chinese Government just gets to have its allies filibuster 
through that process and it cannot be made a rigorous review, 
it really calls into question whether UPR is going to work for 
anyone at all.
    I think last, but not least, I have to put in a pitch for 
the United States visibly demonstrating more support for human 
rights issues in China by increasing the number of people at 
the embassy and consulates who work on human rights issues. The 
number of those people relative to the number of people who 
work on sort of purely political or trade issues, it is a 
pathetic imbalance. It is pathetic, and that really has to be 
rectified.
    China is obviously one of the most difficult governments 
for the United States or for any other government to deal with 
on rights issues. But I think the consequences of failing to do 
better in the future are not pretty ones. It leaves us with 
more product safety debacles. It leaves us with more frustrated 
attempts at multilateral diplomacy. And worst of all, it leaves 
us with more people who are in circumstances like Liu Xiaobo is 
right now, people who have gone out, done what we want them to 
do, been courageous, and we do not know what has happened to 
them. We cannot keep letting that happen.
    So I will stop there. Thanks.
    Ms. Oldham-Moore. Thank you, Sophie.
    Phyllis Chang. And right after Phyllis, we will go right to 
Q&A.

 STATEMENT OF PHYLLIS CHANG, EXECUTIVE DIRECTOR, CHINA LAW AND 
                 DEVELOPMENT CONSULTANTS, LTD.

    Ms. Chang. Good morning, and excuse my 85-degree angle to 
the audience. That is probably how I sit in China anyhow, so it 
is apt. Thank you very much to the Commission for inviting me. 
I am an interloper. I live and work in Beijing--the other 
capital--and just happened to be in Washington for some 
meetings this week when this opportunity to join you at this 
discussion arose. Professor Randle Edwards has very generously 
offered to donate a few of his minutes. But considering that 
his assignment is to review 30 years of Chinese legal reform in 
10 minutes, I feel very bad about taking his time. So if you 
will permit me perhaps at the most 10 minutes, I would like to 
share with you some scattered thoughts--because of the time 
limit and the scope of today's discussion, I am going to 
deliberately jump around a bit.
    Doug, when you introduced me, I was afraid that rather than 
saying many of you have ``crossed paths with Phyllis,'' you 
were going to say that many of you have ``tripped across me'' 
somewhere in Beijing. I have been in China for many years. I am 
a Chinese-American. I am a lawyer who has been working on law 
reform, rights, governance, and women's issues in China for 
more than 14 years, and so perhaps a number of you have tripped 
across me. I often feel like I am the tortoise plodding 
forward, sometimes sideways, in China. That is not an 
inappropriate metaphor for the construction of the rule of law 
and progress toward human rights in China. But I do not mean it 
in a negative way.
    From the perspective of many foreigners, including many of 
those in the room, perhaps the situation with regard to human 
rights and the development of the rule of law in China has been 
far from ideal: very slow, even halting. But from the 
perspective of many Chinese, including many of those who are 
engaged at the very forefront of efforts to push for more 
rights and justice and legal system development, while the pace 
of reform and change, particularly 
recently, has not been nearly as fast, nor the conditions as 
encouraging as perhaps 4 or 5 years ago, with the exception of 
the Chinese who are most critical of their society--and I am 
talking about those who are engaged in legal reform and 
governance reform--almost all Chinese citizens will say to you 
that compared to 15, 20 years ago, even 10 years ago, that 
there has been tremendous progress. And most of them are 
cautiously optimistic.
    Because of the time limit, I am not going to say much more 
about this. My point is that in thinking about--whether we are 
thinking about diplomacy, or how at the programming level to 
engage with Chinese, and how to help Chinese who are reform-
minded--and by Chinese, I mean officials as well as ordinary 
citizens, organizations, businesses, and NGOs--we should always 
try to keep in mind what the view is from the Chinese 
perspective at these various levels. When I say Chinese 
perspective, we should not conflate all of China or different 
strata of Chinese society into one. But I think it would be 
very helpful for foreign parties to think about and ask, ``What 
is the Chinese perspective? How do Chinese feel about human 
rights in China? '' ``What do they think about the human rights 
situation? What do Chinese who seek change themselves think 
would be most productive to do? '' And then to consider, ``How 
can we help them do those things? ''
    And that is how my small firm tries to help Chinese. We 
support Chinese efforts by providing advice on how to design 
and conduct non-profit projects, by building capacity, by 
introducing resources such as leading foreign experts and 
programs, and by providing technical assistance--ranging from 
finding relevant foreign materials to assisting with project 
and financial management. And by helping Chinese projects raise 
funding from various private and government sources. This is an 
approach that I would like to suggest can be among the most 
productive over the long term.
    Also, if we follow such an approach, we will be able to tap 
into and reinforce existing reform impulses in China--to 
harness what we have to offer to the changes that are already 
happening within the country. Lorne discussed the growing call 
for justice among Chinese citizens, and I think we all agree on 
that. I would add that there are not only growing expectations 
for justice at the individual level, that is, justice in the 
case of an individual complaint or grievance, but also, for 
social justice. Very notably, what we have seen emerging is 
attention to social justice, that is, fairness, between and 
among different sectors of Chinese society, or different types 
of groups, even calls for a redistribution of--I know that 
sometimes here in Washington is the wrong word--but a 
redistribution of resources or fair allocation or at least a 
voice in the allocation of governmental and societal resources. 
And I think that this is very striking and very important 
because Chinese who are situated in different points in Chinese 
society are showing empathy for and real concern about Chinese 
who are in other positions and circumstances.
    And a second very important development that is taking 
place in China is that more and more Chinese feel empowered--
another overused term, but one that I really think is apt--
empowered to try to make some effort, whether to help others 
redress a grievance or to improve their own situation or to 
influence policy or to bring to light problems in Chinese 
society or in the Chinese Government. They may not use the term 
``empowered'' themselves, but they believe that they can take 
some action that can have some effect. Maybe it is simply 
organizing a small meeting of their apartment complex's 
homeowners' association--apartment owners--to discuss how to 
put pressure on a property developer that they feel has reneged 
on its promise. Or maybe it is compiling some statistics about 
pollution in a local river and trying to find a sympathetic 
reporter to release those statistics. But that is very 
different from 10 years ago in China, the sense now that 
citizen and individual efforts, beginning at grassroots levels, 
can make a difference, and the realization that there are many 
different paths now to try to bring about change in China.
    I think many of you are very knowledgeable about these 
kinds of changes and dynamics in China. This is just a reminder 
that we should continue to think creatively, to be attuned to 
those forces, and to try to feed into them thus reinforcing the 
Chinese efforts that are already taking place.
    In the remaining minutes, I would like to speak at a more 
general level about the kind of approaches and issues that 
would be, I think, productive to continue as well as new ones 
to renew or try. My comments address both governmental efforts, 
not just U.S. governmental ones, but also those of the European 
Union, Australia, and other countries, including Japan, but 
also, private efforts--private efforts primarily, of course, of 
foundations, but also other types of NGOs and even businesses.
    First of all, in the United States the approach from the 
government side has been, in effect, largely decentralized. 
Time does not allow me to delve into this in detail, and this 
is not the venue for such a discussion, but the idea has been 
to make funding and other resources for cooperative projects 
with Chinese available on a competitive basis. I personally 
think that this is extremely effective and very powerful.
    One of the strengths of the United States is significant 
knowledge, relatively speaking, of China. A large number of 
Americans from all spheres of life, not just lawyers, and law-
trained people, speak Chinese, have spent time in China, have 
many Chinese friends, have a real passion for China, and have 
Chinese colleagues and counterparts who respect and have worked 
with them. And many American organizations have spent 
significant time learning about China--not just a visit or 
two--and have leadership and staff who are knowledgable about 
China. I think that is a tremendous asset. A decentralized 
approach that gives resources, including funding, but not just 
funding, to these kinds of organizations and individuals in the 
United States takes advantage of this asset.
    At the same time, it may also be worth putting more effort 
now, with a new administration coming in, to ramp up bilateral, 
government-to-government, cooperation and programs, without 
diminishing--by this I mean reducing--the decentralized 
approach. The interaction between the two, a decentralized 
approach and a bilateral, more centralized approach, is quite 
delicate, actually. So I will not discuss this today, but I do 
think that there is room and need to increase bilateral 
cooperation between the United States and China in the rule of 
law and human rights area.
     I am about to run out of time so let me finish with a very 
simple last idea, which is also rather an obvious one. Let's 
help to get more Chinese to the United States, to spend time 
here--the longer the better. Because although the United States 
has many serious problems--as do almost all societies--it also 
has many strengths. I think that many of the values and 
approaches in the United States are deeply appreciated by a 
great number of Chinese. They need to come here and be able to 
experience them first-hand as students, visiting scholars, 
visiting officials; even through a brief study tour. Moreover, 
they need to stay in the United States for an extended period 
of time under different types of programs and exchanges, so 
that they can go see how a legislative hearing in Ashburn--
excuse me, an administrative hearing--in Ashburn, Virginia, is 
held about a zoning regulation; or attend a homeowners' 
association and hear people forcibly but politely debating 
which property management company they should hire, and then 
respecting the decision of the majority even though they are 
not really happy with it; or see how legal education is taught 
in the United States and experience this themselves. These 
kinds of interactions and experiences are critical.
    And although it is obvious, and time does not permit me to 
go into the various methods, we have a whole array of 
possibilities for making this possible for Chinese, from 
fellowships for NGO leaders to specially designed training 
programs for officials to internships for journalists.
    And I must add one other comment, even though I am running 
out of--have run out of time. More work should be done on 
women's issues, including women's rights. Susan O'Sullivan, who 
is here today, was among those who helped to pioneer this and 
to develop programs with Chinese women leaders and activists. 
Recently there has not been much work in the area of women's 
issues, and not much funding for projects to support women's 
rights, at least from the United States, but women's issues are 
a tremendous way into human rights. It is obviously part of 
human rights----
    Ms. Oldham-Moore. Phyllis, could I interrupt you for one 
second? Would it be possible for you to stay after the briefing 
to speak with those who want to dig into the details further? 
Because I think the issues you are raising are extremely 
important.
    Ms. Chang. Thank you. That is a very good reminder. I have 
run way over my time.
    Ms. Oldham-Moore. No, but is that an option for you, to 
stay at 12 o'clock here?
    Ms. Chang. I am happy to do that.
    Ms. Oldham-Moore. Afterward at 12 o'clock, if you want to 
drill more deeply into methodologies for rule of law programs 
in China, please come to this table. Phyllis Chang will be 
here.
    Ms. Chang. For a while, at least.
    Ms. Oldham-Moore. For a while. Thank you very much.
    Okay, great. So now we are going to go quickly to our 
question and answer session.
    [Inaudible question off microphone.]
    Ms. Oldham-Moore. Okay, thank you.
    Randy or Sophie, please.
    Mr. Schriver. Thank you for the question. I think it is 
extremely difficult but it is very worthy and deserving work. I 
think, you know, nobody wants to stick their head up first, and 
it requires, I think, selecting the right kind of issues and 
the right kind of assurances that all will stand together or 
you hang alone, because the Chinese are quite good at picking 
off the sort of weak link and then really applying severe 
pressure and consequences.
    But I think, again, understanding in a sophisticated way 
the internal dynamics in China, selecting the right kinds of 
issues, and then going in, in a way that is forceful, 
persuasive, but also respectful, I think you can bring other 
countries along.
    I think maybe in some of the global health and 
environmental areas where there are second-order effects into 
the human rights realm might be a way that our colleagues from 
the countries you mentioned would be more comfortable with 
initially. But nothing breeds success like success. I mean, if 
you start with those issues, you could certainly move on to 
others.
    Ms. Richardson. Yes, it is incredibly tough to do, for all 
of the reasons that Randy has just listed.
    We would like to see even just the establishment, for 
example, of slightly more visible working groups among the 
embassies in Beijing or even the embassies here. But it is 
absolutely true that even if you have a common concern it's 
tough to get common action, even though in the long run that's 
more effective. We have had this experience before--person X 
gets arrested, and every single one of those embassies has 
individually demarched the Chinese Government, it is very 
difficult to get them to do so collectively, let alone to get 
them to do it collectively and publicly. But it packs quite a 
punch when it actually does happen.
    We have had a little bit more success in some of these 
instances when we have enlisted former members of parliament or 
government who are not necessarily themselves currently in 
power, but at least it conveys a sense that there are groups or 
constituencies inside those countries who recognize that people 
in other countries have the same concerns.
    Ms. Oldham-Moore. Thank you.
    Lorne, you wanted to make a brief remark?
    Mr. Craner. Yes. I actually do not think it is that hard 
because we, at least on the human rights dialogue level, 
started doing it. One of the reasons we were able to bring--I 
think it was 14 or 15 countries that had human rights dialogues 
with China in the ``Berne process.'' There was high-level 
interest in the U.S. Government, President Bush and Secretary, 
at the time, Colin Powell had an interest in this. So I was 
able to pursue it with other countries.
    Obviously, when you are working with other countries, you 
have to have respect for what they want to talk about. When I 
was talking to the Europeans, for example, the United States 
raising the death penalty probably does not make a whole lot of 
sense. The Europeans raising religious freedom gets them into 
some hot water. But if you focus on the overlap that you have, 
it can easily be done.
    You know, again, in the first term, we were able to do it 
at that level, at my level, on the human rights dialogues. But 
it was very effective when a number of countries or the United 
States and the European Union were asking for the very same 
thing, and we used to coordinate on what we were asking for. 
The Chinese did not like it, so they started threatening some 
of the members. In fact, I think it is no longer allowed to be 
in Berne, this meeting. I think it has moved to elsewhere. But 
it does continue and, yes, it is very--it can be very 
effective.
    Would it be better if it was raised to higher levels? 
Absolutely. And that is something I think the Obama 
Administration would probably be good at.
    If I can just take one second, I mentioned before the 
support that I had. Some of my predecessors did not have that 
support, and you can argue, you know, about my successors. But 
in China, it was very good for me to be the third person in the 
room talking about these issues after the President and after 
the Secretary of State. If I was the first person in the room 
talking about these issues, I was an Assistant Secretary, they 
could just blow me off. But being the third person in the room, 
we were getting down to brass tacks, not arguments about 
whether it mattered or not. They knew it mattered because the 
President had raised it and then the Secretary of State, and if 
he was not there, Mr. Armitage had raised it already with them. 
And I got a great deal of help from them. That was extremely 
important.
    Ms. Oldham-Moore. Okay, Sophie.
    Ms. Richardson. Very quickly, I just want to--a point that 
Lorne just made about this grouping of countries that does not 
even meet in Berne anymore. It is true that this group does 
still get together, but the meetings do not even get announced. 
We do not know when they are taking place. It is very hard to 
have any input or get any feedback from them. And I realize 
that it is partly because the issues are complicated and partly 
because the countries are, to some extent, trying to protect 
the individual countries that get threatened.
    But, half the point of having those discussions is that the 
Chinese Government knows they are taking place--right?--and 
that there is a sense of solidarity. So that the extent to 
which they sort of sunk lower and lower below the radar screen 
in our view essentially takes some of the utility out of them.
    Ms. Oldham-Moore. Okay. Please, you, sir.
    Mr. Davis. My name is Joe Davis, and I have a question 
about your report and one of your recommendations. To some 
extent this is a question for the Commission, but other people 
certainly have expertise in this area. This is on page 9 under 
the Worker Rights section. It says ``fund multi-year pilot 
projects and showcase the experience of collective bargaining 
in action for both Chinese workers and the All-China Federation 
of Trade Unions [ACFTU] officials.''
    Now, in the United States we think about collective 
bargaining as a negotiation, but both parties have reasonably 
equal power. I do not think that characterizes the relationship 
between the ACFTU and businesses or governments in China. And I 
would like to get some clarification on your perception of 
really what collective bargaining is in this context. And if I 
am incorrect about the ACFTU, being really an agency of the 
Communist Party, if it is, then you cannot use the term 
``collective bargaining.'' ``Consultation'' or something maybe, 
but not collective bargaining. And funding this is building the 
capacity of the ACFTU, which seems to me counterproductive when 
we know that a democracy needs independent trade unions, and 
for workers to have a real voice, they have to be able to 
strike or take some action against their employer without being 
sent to prison. That is my question.
    Ms. Oldham-Moore. Great question. Doug Grob wants to take 
that one.
    Mr. Grob. Okay. Well, thanks very much for that. In 
response to your point about what is exactly the nature of 
collective bargaining, I will say that it is not something that 
you will find today in China. Before I get to your observation 
concerning page 9 of our Annual Report, I would note that we 
report on page 42 that ``some prominent labor advocates suggest 
that, with the new Labor Contract Law now in effect, China's 
new legislative framework `is more than sufficient for the 
development of collective bargaining in China.' The biggest 
obstacle, they claim, is `not the lack of legislation but the 
inability of the official trade union to act as a proper 
representative trade union.' '' And then the Report goes on to 
say, ``The law entrenches the role of the All-China Federation 
of Trade Unions in contract negotiations. But the Labor 
Contract Law does not include provisions to guarantee equal 
bargaining power between workers and employers. The ACFTU is 
China's only legal trade union, and it is required by the Trade 
Union Law to `uphold the leadership of the Communist Party.' 
The vast majority of `trade unions' in enterprises effectively 
remain under the de facto control of management.''
    Our banner conclusion is right at the top of page 41, that 
``Workers in China still are not guaranteed either in law or in 
practice full worker rights in accordance with international 
standards. China's laws, regulations, and governing practices 
continue to deny workers fundamental rights, including, but not 
limited to, the right to organize into independent unions.''
    Onto the specific recommendation that you pointed to, 
``prioritize programs that demonstrate the ability to conduct 
collective bargaining pilot projects even in factories that do 
not have an official union presence.'' There have been, within 
the last few months, 
collective bargaining pilot projects, meaning projects aimed at 
someday producing an outcome that we may legitimately say is 
approaching true collective bargaining. I appreciate the 
comment and thank you for it because obviously we did not make 
the following point clearly enough: these are projects that 
have true collective bargaining as an aspiration and a goal, 
but that do not assume it to be something that currently exists 
in China. There is a fair glimmer of hope, among a select small 
number of NGOs operating on the ground there. We put at the end 
of that sentence that the priority should be on programs that 
are located in ``even factories that do not have an official 
union presence.'' The logic there is that those factories are 
where there would be the greatest potential to produce and 
foster the development of the idea that there can be labor 
organizing and trade unions independent of the ACFTU. So to 
focus on the locations where the ACFTU presence does not pre-
exist, is basically a way to stay ahead of the pack. That is 
the idea there.
    I hope that answers your question. I appreciate it.
    Ms. Oldham-Moore. Thank you.
    Any other questions? Yes, please, you in the purple dress. 
Thanks.
    Ms. Kempton. My name is Nicole Kempton. I am the Director 
of the newly opened Laogai Museum. We are just down the street 
so everyone I think would enjoy a visit, and I encourage you to 
come around and have a conversation with us.
    I want to ask a big-picture question. During the mid-1990s, 
around the time of the debate over MFN status for China, we 
hear the start of the phrase, or I should say mantra, that 
economic growth will improve human rights in China. You know, 
it has been over a decade now since that mantra kind of came 
into existence, and I just wanted to sort of ask a general 
question to the panelists. You know, in light of the fact that 
that phrase has kind of been bankrupted, particularly over the 
last couple of days with the arrest of Liu Xiaobo and 
[inaudible] Charter 08, how can we in this time of Presidential 
transition move beyond that mantra into something more 
meaningful, more useful, and something which encourages a 
dialogue on human rights between our two countries?
    Ms. Oldham-Moore. Okay. Thank you. Who would like to take 
that? Anybody? Phyllis, please.
    Ms. Chang. I will just say two sentences. I am sorry, but I 
strongly disagree with your conclusion that economic growth has 
not propelled the development of the rule of law in China. I 
would say that economic growth has propelled the emergence of 
stronger rights in China and the development of the rule of 
law. I will be here after 12 o'clock, when this discussion 
ends. We can talk more then. But please try to believe what I 
am saying. Economic growth does not mean a delivery of 
democracy or the kind of rights that we or European citizens or 
others in other societies may enjoy. But there has been 
tremendous change in China, and not just social and economic, 
as a result of economic development--it has opened up 
resources, not just space but resources. You need facilities, 
you need money, you need communications, you need media to 
influence other people, other Chinese, from officials to other 
peers. And that all is made possible through economic growth, 
too.
    Ms. Oldham-Moore. Great. One last question? Yes, please.
    Ms. Tucker. Hi, my name is Anna Tucker. I am from the China 
Office of the U.S. Chamber of Commerce. I just wanted to enter 
the term ``stability'' back into the discussion [inaudible]. 
The Chinese Government [inaudible] social stability 
[inaudible]. I wonder what would be involved in that and how 
the United States should handle that [inaudible].
    Mr. Craner. The link between social stability and human 
rights?
    Ms. Tucker. Yes.
    Ms. Oldham-Moore. Do you understand the question?
    Mr. Craner. Not really.
    Ms. Oldham-Moore. Can you flesh that out?
    Mr. Craner. Tell me a little more.
    Ms. Tucker. Well, the Chinese Government [inaudible].
    Ms. Oldham-Moore. Okay. We got it, we got it.
    Mr. Craner. Yes. You know, unlike--and this kind of goes to 
your question. Unlike some other countries in the world that 
have undertaken economic liberalization, say Vietnam or--we 
will leave it at Vietnam--the Chinese Government has also made 
along the way certain decisions about what did the economic 
liberalization mean, what corollaries were necessary. And they 
have been very gently over the years, and in a very incremental 
fashion, been providing some of those. And, you know, we all 
know the list, from rule of law to village elections, et 
cetera.
    I think the question, especially at this point, is what 
expectations about more freedoms has that created among the 
Chinese people and, again, the sense of justice that I was 
talking about, and Phyllis was talking about the sense of 
social justice, and is the system capable of delivering--in 
other words, the Chinese people have been provided with certain 
incremental changes from the top down. Now from the bottom up 
they are asking for more, and the question is: Is the system 
capable of delivering on that as presently configured?
    But I think we are kind of moving into a different stage 
from things being provided to things being asked for, and it is 
going to be interesting to watch the next few years how that 
turns out.
    Does that mean that economic liberalization caused 
democratization? Obviously not yet in China, and we do not know 
the end of the story. I never liked this theory, you know, get 
a middle class--or get an economy, get a middle class, get a 
democracy. I always called it the 50-year, 60-year plan.
    I think the question for the United States is in this case 
what can we do to catalyze that. And I think we are going to 
see a lot of opportunities the next few years.
    Ms. Oldham-Moore. Thank you.
    Randy Schriver, and then Sophie, and then we will stop for 
today.
    Mr. Schriver. I think actually the last two questions 
together kind of raises a question about what narrative are you 
buying into. There is a Chinese narrative--largely Chinese, but 
embraced by some in the United States--of look at where we have 
come from. The progress has actually been extremely rapid and 
the change has been so dramatic when you consider the end of 
the Cultural Revolution in the mid-1970s and the reforms only 
starting in 1978, so we are only looking at a 30-year period.
    There is another narrative of incremental change, the so-
called iceberg; you know, if you sustain your gaze on the 
iceberg, you cannot see it move; but if you look away for some 
period of time and look back, you will notice that it moved, 
and that is kind of the incremental change.
    And then there is a narrative of do not be deceived, you 
know, this is much worse than it suggests, but--I do not know 
why I am going into this detail, but my narrative has always 
been it is sort of the performer with the spinning plates. And 
every once in a while a plate gets wobbly, and they have either 
got to--they have a decision of letting it fall and break or 
try to somehow keep the plate spinning. And I have never really 
seen the Chinese as fundamentally against reform or against the 
improvement of certain human rights or the quality of life. And 
I think they are being presented right now with some very 
interesting choices, and your question, human rights or 
freedoms being introduced as a negative influence on social and 
political stability.
    Well, look at the situation with the media right now. What 
they are finding in the era of advanced technology is that a 
controlled state media is actually working to their detriment 
when it comes to rumor control and gossip because nobody trusts 
the official media. So you get the most outrageous rumors 
starting, you know, sometimes involving Western companies, 
sometimes--and, you know, people are going to believe their 
text message and their blog before they believe the state 
press. So is this an opportunity to push for more press 
freedoms? Because I think it is.
    I mean, that is how I conceive of these things, and it is 
not so clear either/or, and I do not think the Chinese look at 
it that way either.
    Ms. Richardson. Just two quick points. One, on the term 
``stability,'' it is one that we will certainly be working hard 
to make sure that nobody in the Obama Administration dignifies, 
because, frankly, it is such an elastic term that it really 
could be meant to mean anything. I am sure somebody is telling 
Liu Xiaobo right now that he has posed a threat to stability 
and, therefore, he has to be sentenced for at least three and a 
half years.
    But, also, I did want to respond a little bit on the point 
about economic development and the rule of law, because I think 
the reality is that had it not been for reform and opening up, 
you would not have seen the initial steps toward modernizing 
and improving the legal system that in turn created the space 
for essentially what we think of as one of the most promising 
developments for China in the future, and that is the group 
referred to as the ``wei quan lawyers,'' people who are trying 
to work essentially within the constitutional framework to 
improve access to justice, which is probably the most sort of 
rampant human rights problem across the country.
    I urge everyone to read Professor Jerry Cohen's piece in 
the new issue of the Far Eastern Economic Review. He makes a 
great point that Chinese courts are infinitely better equipped 
and willing to hear huge numbers of cases at sort of a garden 
variety level, but that until much more controversial cases can 
be heard on an equal basis, there is still quite a long way to 
go.
    Ms. Oldham-Moore. Thank you, Sophie, and I want to thank 
everybody on this panel. It has been an illuminating and 
interesting discussion.
    I want to make three quick announcements. Please pick up a 
copy of our report. Go to our Web site where there are daily 
updates. We are going to try to expedite the production of this 
transcript of this proceeding. If you are on our list, you will 
be notified when it is released. [Applause.]
    [Whereupon, at 12:01 p.m., the roundtable was adjourned.]

                                 <all>

</pre></body></html>
